<html>
<title> - NOMINATIONS OF GRAYLING G. WILLIAMS AND ELIZABETH M. HARMAN</title>
<body><pre>[Senate Hearing 111-644]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 111-644

      NOMINATIONS OF GRAYLING G. WILLIAMS AND ELIZABETH M. HARMAN

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

     NOMINATIONS OF GRAYLING G. WILLIAMS TO BE DIRECTOR, OFFICE OF 
COUNTERNARCOTICS ENFORCEMENT, U.S. DEPARTMENT OF HOMELAND SECURITY, AND 
 ELIZABETH M. HARMAN TO BE ASSISTANT ADMINISTRATOR, FEDERAL EMERGENCY 
        MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND SECURITY

                           DECEMBER 10, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
56-151 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana                  ROBERT F. BENNETT, Utah
ROLAND W. BURRIS, Illinois
PAUL G. KIRK, JR., Massachusetts

                  Michael L. Alexander, Staff Director
                    Beth M. Grossman, Senior Counsel
               Kristine V. Lam, Professional Staff Member
               Blas Nunez-Neto, Professional Staff Member
              Jason T. Barnosky, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
   Robert L. Strayer, Minority Director for Homeland Security Affairs
                   Jennifer L. Tarr, Minority Counsel
        Christopher J. Keach, Minority Professional Staff Member
          Adam J. Killian, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee

                   Laura W. Kilbride, Hearing Clerk










































                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................ 1, 11
    Senator Collins.............................................. 2, 13
Prepared statements:
    Senator Lieberman........................................... 25, 28
    Senator Collins............................................. 27, 30

                               WITNESSES
                      Thursday, December 10, 2009

Grayling G. Williams to be Director, Office of Counternarcotics 
  Enforcement, U.S. Department of Homeland Security..............     3
Elizabeth M. Harman to be Assistant Administrator, Federal 
  Emergency Management Agency, U.S. Department of Homeland 
  Security.......................................................    14

                     Alphabetical List of Witnesses

Harman, Elizabeth M.:
    Introduction submitted by Senator Mikulski...................    11
    Testimony....................................................    14
    Prepared statement...........................................    71
    Biographical and financial information.......................    73
    Letter from Office of Government Ethics......................    81
    Responses to pre-hearing questions...........................    82
    Responses to post-hearing questions..........................   109
    Letter from Ms. Harman submitted by Senator Collins..........   112
    Letters of support...........................................   113
Williams, Grayling G.:
    Testimony....................................................     3
    Prepared statement...........................................    31
    Biographical and financial information.......................    33
    Letter from Office of Government Ethics......................    41
    Responses to pre-hearing questions...........................    42
    Letters of support...........................................    65

 
      NOMINATIONS OF GRAYLING G. WILLIAMS AND ELIZABETH M. HARMAN

                              ----------                              


                      THURSDAY, DECEMBER 10, 2009

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman and Collins.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. Good 
morning and welcome to this hearing at which we are going to 
consider the nomination of Grayling Williams to be the Director 
of the Office of Counternarcotics Enforcement (CNE) at the 
Department of Homeland Security (DHS).
    I want to note at the outset that after we consider Mr. 
Williams' nomination, the Committee will move immediately to 
consider the nomination of Elizabeth Harman, who has been 
nominated to be Assistant Administrator for the Federal 
Emergency Management Agency (FEMA) in charge of the Grant 
Programs Directorate (GPD).
    But let us begin with the Office of Counternarcotics 
Enforcement. It was created as part of the Homeland Security 
Act of 2002 and strengthened by the Intelligence Reform and 
Terrorism Prevention Act of 2004, the so-called 9/11 Commission 
legislation--both of which, I am proud to say, came out of this 
Committee. The idea here was to create an office to coordinate 
the counternarcotics policies and operations of the Department 
of Homeland Security's many component agencies and to 
coordinate policy with other Federal, State, and local law 
enforcement agencies to halt the flow of illegal drugs into the 
United States.
    CNE is responsible for recommending appropriate levels of 
financial and personnel resources within DHS to address the 
drug-trafficking threat and works very closely with the Joint 
Terrorism Task Forces (JTTFs) to track and sever connections 
between illegal drug trafficking and terrorism.
    Frankly, the office, in my opinion, has never been more 
vital to the mission of the Department of Homeland Security 
than it is today. As this Committee learned in a set of 
hearings earlier this year which focused on violence on the 
southern border, the Federal Bureau of Investigation (FBI) has 
labeled the Mexican drug cartels as the No. 1 organized crime 
threat in America today. The cartels have used the cash and 
guns they transport south across the border to declare war on 
the Mexican government, which has led to a series of brutal 
attacks on Mexican officials, including beheadings and mass 
murders.
    If this level of violence against a government occurred 
elsewhere in the world, we would quickly call it terrorism. And 
I think that is exactly what the cartels have become: 
Narcoterrorists. The Mexican government, led by President 
Calderon, has taken courageous and unprecedented steps to take 
on these cartels and to strengthen and re-impose, if you will, 
the rule of law. But despite the Mexican government's best 
efforts, the level of violence in Mexico is still much too 
high. The Department of Homeland Security itself has projected 
a 40-percent increase in drug cartel-driven murders in Mexico 
this year, and that is over the very high levels of last year.
    Mr. Williams, if you are confirmed, you will be, of course, 
a key player in our efforts to combat these threats I have just 
described and generally the threats of drug trafficking. I know 
you will have to work tirelessly to strengthen our defenses 
against increasing levels of drug-related violence along our 
southern border, but also the growing level of sophistication 
in the tactics used by drug traffickers. For example, the 
cartels are exploiting a loophole in our money-laundering laws 
that allows drug traffickers to use stored value cards to 
launder their drug profits, and I hope you will work with us to 
ensure that this loophole is closed, should you be confirmed.
    Mr. Williams, I believe, is exceedingly well qualified to 
take on these challenges of this position after a 23-year 
career at the Drug Enforcement Administration (DEA). Since 
2008, he has served there as Chief of Staff to the Chief of 
Operations at DEA, following earlier tours of duty, if you 
will, as Section Chief/Assistant Special Agent in Charge at DEA 
Headquarters Operations Division, and before all that work at 
DEA, I am proud to say, Mr. Williams was in law enforcement in 
the State of Connecticut and got part of his extraordinary 
educational background at universities in the State of 
Connecticut as well, including Yale and the University of New 
Haven.
    So I welcome you before this Committee. I look forward to 
hearing your statement and your plans, if confirmed, and I am 
very proud now to call on our Ranking Member, Senator Susan 
Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    As the Chairman has pointed out, this nomination comes 
before us at a time when the threat to our Nation posed by 
illegal drug trafficking is escalating.
    Earlier this year, the Committee held two hearings on 
violence along the southwest border being perpetrated by 
Mexican drug cartels. The horrific bloodshed that has resulted 
in the deaths of thousands in Mexico is not constrained to the 
southern side of the border. It has, on multiple occasions, 
spilled over into the United States leading to murders, 
kidnappings, and other violent crimes. The cartels' trafficking 
and the associated violence demand increased attention at the 
Department and across the Federal Government.
    The 2009 National Southwest Border Counternarcotics 
Strategy noted an even greater threat to our homeland security, 
and that is, the possibility of collaboration between drug 
cartels and terrorist groups. The strategy noted that the same 
smuggling routes and techniques used to bring narcotics across 
the border could be exploited to smuggle in ``terrorists and 
weapons of terror.'' Our homeland security officials must fight 
this potential threat, working closely with the many security 
elements arrayed against illegal drug trafficking.
    Coordinating DHS's work with these security elements at the 
Federal, State, and local levels is among the primary 
responsibilities of the Director of the Office of 
Counternarcotics Enforcement. The Director serves as the 
Secretary's primary adviser on all counternarcotics issues and 
coordinates DHS's enforcement efforts across the Department and 
with other Federal, State, and local entities. Working with 
Joint Terrorism Task Forces, CNE also must help to detect and 
disrupt any connections between drug trafficking and terrorist 
groups.
    Mr. Williams comes before this Committee with more than 20 
years of experience in our Nation's counternarcotics efforts, 
and I look forward to hearing his views this morning.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you very much, Senator Collins.
    Let me say for the record that Mr. Williams has filed 
responses to a biographical and financial questionnaire, 
answered pre-hearing questions submitted by the Committee, and 
has had his financial statements reviewed by the Office of 
Government Ethics. Without objection, this information will be 
made part of the hearing record with the exception of the 
financial data, which are on file and available for public 
inspection in the Committee offices.
    Mr. Williams, our Committee rules require that all 
witnesses at nomination hearings give their testimony under 
oath, so I would ask you to please stand and raise your right 
hand.
    Do you swear that the testimony you are about to give to 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Williams. Yes, I do.
    Chairman Lieberman. Thank you very much. Please be seated. 
We would welcome at this point any opening statement you would 
like to make, as well as introduction of any family or friends 
who are with you this morning.

TESTIMONY OF GRAYLING G. WILLIAMS TO BE DIRECTOR,\1\ OFFICE OF 
   COUNTERNARCOTICS ENFORCEMENT, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Williams. Thank you and good morning, Senator Lieberman 
and Senator Collins, and distinguished Members of the 
Committee. I am honored to appear before you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Williams appears in the Appendix 
on page 31.
---------------------------------------------------------------------------
    I am deeply humbled by the confidence that President Obama 
has shown in me by nominating me to be the second Director of 
the Office of Counternarcotics Enforcement at the Department of 
Homeland Security, and I am very grateful to Secretary 
Napolitano for her support.
    Right now I would like to introduce you to my brother, 
Darwin Cadogan, who has spent 30 years as a special agent with 
the Bureau of Diplomatic Security at the Department of State 
and, prior to that, as a corrections officer with the New York 
City Corrections Department.
    Also here is my niece, Rhonda Cadogan, of whom I am very 
proud, and also a few of my colleagues from the Drug 
Enforcement Administration, most notably the Deputy Chief of 
Intelligence, Judith Bertini. They have all been very 
supportive of me.
    Last, and perhaps most important, I would like to thank my 
children, Brianna and Grayling, who are with me in spirit and, 
I understand, watching this hearing online through the 
Committee website.
    Chairman Lieberman. Good.
    Mr. Williams. Should I be confirmed, I look forward to 
working with the dedicated men and women of CNE and the entire 
Department of Homeland Security to protect our Nation from 
threats and ensuring that CNE is an effective and valued member 
of the counternarcotics enterprise. There are several members 
of CNE that are also here today with us.
    If confirmed, I will draw upon my almost 29-year career as 
a law enforcement officer, which includes 22 years as a special 
agent of the Drug Enforcement Administration. I have worked on 
the front lines of the War on Drugs as a case and undercover 
agent and as a supervisor. I know what it takes to coordinate a 
successful drug enforcement operation in a multi-jurisdictional 
task force environment. I also have experience managing 
headquarters' staff; directing, coordinating, and planning 
programs; and motivating and mentoring employees. I have 
acquired the knowledge, skills, and abilities necessary to 
provide competent and accountable leadership, and I have 
learned how to achieve change within an organization.
    Moreover, from working foot patrol in New Haven, 
Connecticut, as a member of the Yale University Police 
Department, to developing complex drug conspiracy 
investigations for DEA, to conducting undercover operations 
training for the Polish National Police in Warsaw, I have 
developed collaborative working relationships with many State 
and local police departments, Federal agencies, and 
international law enforcement entities. In fact, in my current 
position at DEA headquarters, I oversee studies and projects 
focused specifically on interagency collaboration--affording me 
a unique understanding of the interagency process and how to 
strengthen partnerships across the Federal Government.
    Today, our Nation faces a difficult challenge: How do we 
combat the illicit drug trade and smuggling activities while 
facilitating the legitimate movement of goods and people across 
our borders? Highly complex and sophisticated criminal 
organizations test our Nation's security on a daily basis by 
attempting to smuggle drugs, people, weapons, and money across 
our borders. Moreover, these criminal organizations are 
constantly evolving, forcing us to re-think our methods for 
dealing with them.
    Part of the Department of Homeland Security's primary 
mission, as set forth in the Homeland Security Act of 2002, is 
to ``monitor connections between illegal drug trafficking and 
terrorism, coordinate efforts to sever such connections, and 
otherwise contribute to efforts to interdict illegal drug 
trafficking.'' CNE is a unique office geared toward 
coordinating DHS's efforts to fulfill this mandate. CNE both 
coordinates the Department's work with State, local, and tribal 
law enforcement on these issues and represents the Department 
within the interagency community on counternarcotics policy and 
operations. If confirmed, I will lead the office in its efforts 
to fully and effectively carry out these responsibilities.
    First, CNE will ensure coordination of DHS's 
counternarcotics activities along the borders. We will 
strengthen the office's partnerships within and outside the 
Department. Second, I will ensure that the DHS counternarcotics 
enterprise succeeds by assessing the resources needed to 
fulfill the Department's mission. Third, I will work with DHS 
component heads to ensure that each component is properly 
incorporating the Department's mandate to track and sever the 
ties between drug trafficking and terrorism.
    Additionally, I will establish a proactive, positive 
relationship with Secretary Napolitano's other advisers on 
policy and operational matters and further develop previously 
established mechanisms, such as the Counternarcotics 
Coordinating Council. I will also work with the interagency 
community by establishing regular contact with non-DHS 
officials and entities and strengthening outreach and 
collaboration with State, local, and tribal officials.
    In conclusion, I believe that my background and experience 
have prepared me to take on the significant and varied 
responsibilities of the Director of the Office of 
Counternarcotics Enforcement. I would like to thank the 
Committee for considering my nomination.
    Thank you.
    Chairman Lieberman. Thank you, Mr. Williams. Thanks very 
much for an excellent, really clear opening statement. I am 
going to start the questioning with the three questions we ask 
of all nominees.
    First, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Williams. No, sir.
    Chairman Lieberman. Second, do you know of anything, 
personal or otherwise, that would in any way prevent you from 
fully and honorably discharging the responsibilities of the 
office to which you have been nominated?
    Mr. Williams. No.
    Chairman Lieberman. And, third, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted committee of Congress if 
you are confirmed?
    Mr. Williams. Absolutely, sir.
    Chairman Lieberman. Thank you very much.
    Let me, in my first couple of questions, pick up on a few 
of the statements that you made. Obviously, the primary 
responsibility of this office to which you have been nominated 
is coordination of the various assets within the Department of 
Homeland Security. Because CNE does not have an operational 
role, like Customs and Border Protection (CBP) or the Coast 
Guard, it depends on the component agencies providing 
sufficient information in order to execute its mission.
    I have heard that the DHS component agencies, for instance, 
only report their counternarcotics performance measures to CNE 
twice a year and that the Counternarcotics Coordinating 
Council, which includes the head of all the operational 
agencies and is chaired by the CNE Director, the position to 
which you have been nominated, has met very rarely in the past.
    So I wanted to ask you what thoughts do you have, what 
ideas do you have, what plans do you have to require more 
sharing of counternarcotics information on a real-time basis. 
And, for instance, what thoughts do you have about the use you 
would make of the Counternarcotics Coordinating Council?
    Mr. Williams. Senator, I would like to say that if I am 
confirmed, what I would like to do is get into the position and 
reinvigorate the Counternarcotics Coordinating Council. I see 
that as a vital component in carrying out our mission of 
coordinating and developing strategies with those entities such 
as Immigration and Customs Enforcement (ICE), CBP, and the 
Coast Guard that have a counternarcotics mission. So I would 
like to reinvigorate that whole program and get that started 
again.
    The other thing that is important on getting information 
from our components is, I would like to pursue having detailees 
from each of those components--ICE, CBP, and the Coast Guard--
work at CNE on a regular headquarters detail.
    Chairman Lieberman. That is a very good idea. That reminds 
me of what I was going to ask you, just a basic fact question. 
Approximately how many people are working directly in CNE now, 
do you know?
    Mr. Williams. We have about 15 staff members.
    Chairman Lieberman. So it is a core headquarters staff and 
a coordinating staff?
    Mr. Williams. Yes.
    Chairman Lieberman. How about the other part of this, which 
you mentioned? And I will quote from one of your responses to 
the Committee's questions, which is when you said, ``The major 
external challenge facing CNE is to ensure the effective 
coordination of the Department of Homeland Security's 
counternarcotics efforts with other departments in the 
interagency process.'' I wanted to ask you what ideas you have. 
It is an important commitment, and I agree with you, that is a 
priority. What are your specific ideas, if you have any now, to 
implement that goal, that vision?
    Mr. Williams. Well, a couple of ideas that come to mind are 
I would like to be able to leverage my relationship with such 
agencies as DEA, the FBI, and the Bureau of Alcohol, Tobacco, 
Firearms and Explosives (ATF). I have lifelong friends and 
relationships that are well established and that I would like 
to be able to utilize.
    One of the things for CNE is that we are supposed to 
represent the Department on counternarcotics matters at 
interagency working groups, policy and strategy task force 
groups, and that is something that we need to continue and we 
need to actually reinvigorate and move forward. So I would like 
to continue that. But, again, the only way I am going to be 
able to do that is if I am able to get a good, strong working 
relationship with our components with a counternarcotics 
mission because ultimately I will be representing them, looking 
for resources for them to carry out their mission.
    Chairman Lieberman. Good answer, and I appreciate it.
    Let me ask you about the Mexican drug cartels, which both 
Senator Collins and I referred to in our opening statements. As 
a career agent and executive at DEA, I know you have a wealth 
of knowledge about drug-trafficking organizations. I wanted to 
ask you first, what is your assessment of the threat posed to 
America by the Mexican drug cartels?
    Mr. Williams. Well, my assessment actually mirrors that of 
the statement of the FBI that the drug cartels are the major 
organized crime threat to this country right now. I could not 
agree more. This is a problem that we have to aggressively deal 
with by good intelligence sharing and good collaboration and 
old-fashioned detective work, get our agents and our Border 
Patrol officers out there, working to disrupt their activities 
and, when possible, to dismantle their cartel organizations.
    We also need to keep in mind, because the Department has an 
overarching mandate to protect the homeland and to protect us 
from terrorism, we have to always look for that link if 
possible between drug trafficking and terrorism. And we know 
that exists. We see it in the Middle East in areas like 
Afghanistan with what is going on there with the opium 
production. So we have to monitor that with the Mexican drug 
cartels and see if they have ever been approached by foreign 
terrorist organizations.
    Chairman Lieberman. Yes, I agree. We have had evidence 
before the Committee of a concern that foreign terrorist groups 
might actually link up with Mexican drug cartels to assist them 
in entering the country illegally, but also to gain revenue to 
carry out their plans against the United States.
    Let me ask you to just go a little bit deeper, if you can, 
if you have any thoughts about what the unique role of the 
Office of Counternarcotics Enforcement would be in the battle 
against the Mexican drug cartels, particularly with regard to 
any of the component agencies of DHS.
    Mr. Williams. Well, as you alluded to earlier, CNE is not 
an operational component of DHS, nor is it an intelligence-
gathering component. So our main role is to work with our 
component agencies--ICE, CBP, and the Coast Guard--to ensure 
that whatever programs that they are pushing forward, they are 
on point and on track, working with them, being their 
representative on various committees.
    One of the things that CNE was able to do, along with the 
Office of the Deputy Attorney General, is to put together the 
Southwest Border Counternarcotics Strategy.
    Chairman Lieberman. Right.
    Mr. Williams. Which is an excellent document. I just want 
to say that for many years, law enforcement at the Federal 
level has given resources to the southwest border, but it was 
basically that DEA would do their thing, the FBI would do their 
thing--before ICE, it was Customs, and Customs would do their 
thing.
    This is a road map now that basically spells out 
everybody's responsibilities, and it gives them guidance on 
what they should be doing and how they should be doing it, and, 
more importantly, the sharing of information.
    So CNE will be that group that is at the 30,000-foot level 
and will be able to bring our components together as one DHS 
and then take that message forward to the interagency, as well 
as State and locals.
    Chairman Lieberman. Good. Thank you. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Let me follow up on the issues that the Chairman has 
raised. I am very concerned from the work that we have done in 
this Committee and from what I have seen at the Armed Services 
Committee about the link between terrorism and drug 
trafficking. You see it literally all over the world, and 
certainly we see it in Afghanistan, where the proceeds from the 
drug crop, the poppy crop, are used by terrorist groups such as 
the Taliban.
    That leads me to be very concerned that it is inevitable 
that terrorist groups are going to link up with the Mexican 
drug cartels to smuggle either terrorists into this country 
using well-known successful smuggling routes or perhaps a 
weapon of mass destruction of some sort.
    I am curious what the relationship is between CNE and our 
Joint Terrorism Task Forces and also the relationship between 
CNE and the National Counterterrorism Center because CNE may 
well have information about drug trafficking through the 
components of DHS that would be very valuable to the Joint 
Terrorism Task Forces or to the National Counterterrorism 
Center (NCTC). So what kind of relationship exists now? And how 
would you strengthen it?
    Mr. Williams. Well, Senator Collins, your concerns are my 
concerns also, and one of the things I will say is that, again, 
not having that operational or intelligence-gathering component 
under us, we do have an individual that is assigned to the 
national JTTF, and we are looking at that because from my years 
of experience, it is more appropriate to leverage our 
operators--our ICE operators, our CBP officers, Border Patrol 
agents, Coast Guard folks--because those are the men and women 
who are out there doing the job every day.
    My staff, which is only 15 people, are not on the ground. 
They are not operationally engaged. So what we would do is work 
with them to identify those associations. Besides the JTTF, 
there is the Special Operations Division (SOD) run by the Drug 
Enforcement Administration that has a counterterrorism 
component. If there is any information that comes up in a drug 
investigation, there is already a unit in place at SOD to which 
you are to turn that information over for ultimate exploitation 
by the FBI.
    So I would look to make sure that our components are 
working, not just with the JTTF, but also in areas such as SOD 
and the Organized Crime Drug Enforcement Task Force (OCDETF) 
Fusion Center. The important key here is, as you mentioned, to 
get the information and then get it out to the right people so 
that information can be acted upon.
    Senator Collins. The Chairman and I are very sensitive to 
that issue because we have worked for so many years to change 
the culture in the Federal Government to one of sharing 
essential information, not only across the Federal Government 
but with our State and local partners, and that is why I am 
particularly pleased with your background because you will 
understand who has the information and why it must be shared. 
But as the case involving the massacre at Fort Hood certainly 
appears to suggest, we still have barriers to the sharing of 
absolutely vital information.
    I also want to join the Chairman in expressing concerns 
about stored value cards. An important part of the 
counternarcotics effort is to interdict and seize cash from the 
drug trade, and we have been very concerned about an emerging 
trend where money is smuggled across the border in an 
electronic format such as stored value cards. And we all know 
that if you cross the border with $10,000 or more in cash, 
Federal law requires that to be declared. Any of us who have 
ever checked that box on the Customs form is aware of that 
regulation--not that I have ever had to worry about having 
$10,000 with me.
    But there is a glaring loophole in that stored value cards 
are not deemed as ``monetary instruments'' and they do not have 
to be declared. And for this reason, the Chairman and I joined 
forces once again, and when the credit card accountability bill 
was on the floor in May, I offered an amendment with the 
Chairman that required the Treasury Department, in consultation 
with DHS, to issue regulations that should be aimed at 
requiring stored value cards to be declared as well.
    Unfortunately, I am told that the Treasury Department 
appears to be extremely reluctant to issue regulations 
regarding these cards.
    What will you do to ensure that the intent of Congress--
since DHS has a role here, that is, these regulations are 
supposed to be issued in consultation with DHS--is carried out 
and that the regulations are issued?
    Mr. Williams. Well, what I would like to get involved in is 
already under discussion between DHS and, for instance, the 
Financial Crimes Enforcement Network (FinCEN), a component of 
the Treasury Department. As a matter of fact, it is our money-
laundering experts from ICE that are leading the charge in 
looking at this issue of stored value cards. Any assistance, 
any guidance or help that I can offer Immigration and Customs 
Enforcement, the money-laundering gentlemen there that are 
leading the charge, I would like our office to be able to be 
involved in that. And if I can leverage assistance from such 
agencies like DEA and their Office of Financial Operations to 
get involved in the fight and even bring the FBI into it, I 
will because everyone across the board in law enforcement sees 
this as an evolving threat.
    So the way this thing works is if we are supposed to stop 
money being taken out of the country, drug proceeds, and you 
are telling me that $500,000 can be put on a stored value card 
and there is nothing that says that this person has to declare 
it or give any information, that is a major problem for this 
country and that is a major problem for law enforcement.
    So whatever I can do--and I will do this in consultation, 
again, with entities such as ICE and CBP--my office stands 
ready.
    Senator Collins. Great. Well, I hope that you will make 
that a priority, assuming your confirmation, which I think is a 
pretty good assumption, and that you will let the Chairman and 
me know if you encounter resistance from the Treasury 
Department on this. It is inconceivable to me that Treasury has 
not acted. This is such a glaring loophole, and it does need to 
be closed. So please do come back to us.
    Let me just make one final comment, if I may, Mr. Chairman. 
The southwest border obviously has gotten a great deal of 
consideration and attention and warrants it. But my final 
comment to you is do not forget the northern border as well. 
That also is vulnerable. There are wide open stretches where 
there is very little enforcement activity. That border is far 
longer than our southern border, and it, too, is vulnerable to 
smuggling of drugs. So I hope that as we appropriately, in 
response to the Mexican cartel problem, focus resources and 
efforts on the southwest border, we do not create a new 
vulnerability on our northern border. Thank you.
    Mr. Williams. Yes, thank you.
    Chairman Lieberman. Thanks, Senator Collins. I agree.
    Mr. Williams, thanks for your testimony. You have been very 
responsive, and you have a great background, and I agree that I 
hope your nomination goes sailing right through.
    Just as I listened to you--and we have had a couple of 
other nominees come forward--when we put this Department 
together in response to September 11, 2001, we knew part of it 
was to gain the benefits of collaboration and coordination that 
were missing in a literal sense that implied a lot more to have 
a place where the dots were connected. People were working 
together to protect our security from natural disasters and 
unnatural ones like terrorism and drug trafficking. But then we 
came back and created positions like this one and in some sense 
the Intelligence and Analysis Directorate (I&A), which were 
aimed at creating within the Department of Homeland Security 
people who would really work to coordinate the relevant people 
in the 22 or so agencies of the Department so that the whole 
would be greater than the sum of its parts. And obviously, that 
is exactly what this office is about, and I think there is 
tremendous potential to do things that have not been done in 
that regard yet and that I am confident you have the ability 
and experience to do. So I appreciate your willingness to 
serve.
    We are going to, without objection, keep the record of this 
hearing open until tomorrow at 12 noon for the submission of 
any written questions or statements for the record. If you get 
any questions, I hope you will answer them as quickly as you 
can, and to the extent that it is possible, and as you may know 
from following the newspaper, the Senate is a highly 
unpredictable organism. One never knows when it will move 
quickly or not move at all. [Laughter.]
    But hopefully it will move quickly and smoothly in regard 
to your nomination, so I thank you very much, and we will now 
close this part of the hearing.
    Mr. Williams. Thank you, Senators. Thank you very much.
    Chairman Lieberman. All the best.
    We will now proceed to the hearing on the nomination of 
Elizabeth Harman. Would you please come forward to the table?
    [Pause.]

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will reconvene. Ms. Harman, 
welcome to the table. We are now going to consider your 
nomination to be the Assistant Administrator for FEMA in charge 
of the Grant Programs Directorate. You have drawn support from 
a truly impressive array of people. First, I want to submit for 
the record, without objection, a very strong statement on your 
behalf from Senator Barbara Mikulski of Maryland, our 
colleague.
    [The prepared statement of Senator Mikulski follows:]

PREPARED STATEMENT OF SENATOR BARBARA MIKULSKI IN SUPPORT OF ELIZABETH 
                                 HARMAN
    Mr. Chairman, I am happy to support the nomination of Elizabeth 
Harman to become Assistant Administrator for the Federal Emergency 
Management Agency. Ms. Harman's credentials, as well as her commitment 
to the people of this country, make her an excellent choice for this 
position.
    I have three criteria that I use to evaluate all Executive Branch 
nominees: Competence, integrity, and commitment to the core mission of 
the Department. Based on these criteria, I wholeheartedly support 
Elizabeth Harman to the FEMA Assistant Administrator Post.
    Ms. Harman has served as the Director of the Hazardous Materials 
and Weapons of Mass Destruction Training Department at the 
International Association of Firefighters for the past 5 years. While 
there, she has managed a program specifically targeted to disaster 
preparation and response. In addition to her roles as a mentor and 
teacher at various points throughout her career, Ms. Harman has been 
out there herself--notably as Prince George's County Volunteer Fire 
Fighter in our home State of Maryland for 8 years. She understands the 
environment, and has the education and practical knowledge that will 
only be an asset to the Department.
    I am proud to join the Fraternal Order of Police, the International 
Association of Fire Chiefs, and many others in endorsing this 
nomination, and thank you for bringing this nomination forward for a 
hearing.

    Chairman Lieberman. The support comes from a very broad 
array of leaders of the first responder community, a number of 
whom are here today. I would note and welcome my dear friend, 
Harold Schaitberger, the President of the International 
Association of Fire Fighters (IAFF), and all the other 
representatives of various first responder communities that are 
here.
    Your nomination has been endorsed not only by the IAFF, but 
by the International Association of Fire Chiefs (IAFC), the 
National Association of State Fire Marshals, the National Fire 
Protection Association, the Fraternal Order of Police (FOP), 
the National Association of Police Organizations, the National 
Sheriffs' Association, and many individual leaders in the field 
of response and emergency medical service. This reminds me of 
all those old stories that say when you are this far ahead, you 
probably should not answer any of the questions we ask. But it 
is quite an impressive group of supporters.
    The Grant Programs Directorate and the position of 
Assistant Administrator in charge of grant programs are the 
result of changes made by the Post-Katrina Emergency Management 
Reform Act of 2006, which this Committee authored. Our goal 
there was to create a new, stronger FEMA by bringing together 
the Department's mission to prepare for natural and manmade 
disasters with its mission to respond to those same disasters.
    Homeland security grant programs were a key part of the 
preparedness mission, and the new FEMA was to include a ``one-
stop shop'' for grant assistance to help State and local 
governments and first responders to prepare for natural 
disasters or terrorist attacks.
    The Assistant Administrator for the Grant Programs 
Directorate, the position for which you have been nominated, is 
responsible for these programs. If confirmed, you would fully 
administer about 20 of these programs to help prepare State, 
local, and tribal governments, first responders, and nonprofit 
organizations for acts of terrorism and natural disasters 
through training and equipping police, firefighters, and other 
first responders; and through better security at our ports and 
transit systems. And you would be responsible additionally for 
the financial management of another 30 grant programs that 
assist victims post disaster and help communities mitigate 
against potential damage from future disasters.
    So this is a wide-ranging job, a big job, and big 
responsibilities. But I do believe your strengths for this 
nomination are as big as the responsibilities of the office. It 
begins with the fact that you have been a firefighter and a 
paramedic and, therefore, have in this case what certainly 
would be called ``boots on the ground'' experience. You 
understand, I am sure, from firsthand experience that proper 
preparation and sufficient resources are keys to helping first 
responders do the jobs that we ask them and you to do for us. I 
am sure that you know the value of all-hazards training, in 
other words, training for predictable emergencies such as fires 
and floods, as well as the unpredictable, such as terrorist 
attacks, and that you understand where Federal grants are being 
spent, where they should be spent, and the value of consulting 
first responders before spending decisions have been made.
    Since 2005, Ms. Harman has been the Director of the 
Hazardous Materials and Weapons of Mass Destruction training 
program within the IAFF. She has held emergency medical 
training positions at the University of Maryland Fire and 
Rescue Institute, the Johns Hopkins University Medical School, 
and the George Washington University. And as I mentioned, you 
began your career as a firefighter and emergency medical 
technician (EMT) in Bowie, Maryland, and Fairfax, Virginia.
    A graduate of the George Washington University with a 
degree in Emergency Medical Services Management, and from the 
University of Maryland, a Master of Science in Emergency Health 
Services, so you really bring quite an impressive background.
    If confirmed, you will, of course, face a number of 
challenges over the next few years, the most serious of which 
may be the need to do more with less. Under the assumptions set 
out in the fiscal year 2010 budget, by 2014 the Department will 
be faced with a 13-percent budget cut in real terms from its 
current funding level. I know that we, on this Committee, will 
work hard to see if we can turn those projections around and, 
as we have in the past, fight for more funding. I hope that 
will be true. But even assuming it is based on the demands, 
resources are inevitably going to be tight, and grant funding 
is going to involve some tough decisions. So performance 
measurement, I think, will gain in importance as resources must 
be focused most on programs that work.
    In both the Post-Katrina Act and the 9/11 Act of 2007, we 
injected and put in various methods for ensuring that grant 
funds are spent effectively. Up until this point, I must say 
that many of those requirements have not been met, and I look 
forward to your closing that gap when, if confirmed, you assume 
this position.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    First, let me join you in welcoming the first responder 
organizations who are here today. They are friends in this 
Committee. We have worked very closely with them on a number of 
issues, and the fact that Ms. Harman has their support means a 
lot to me as well.
    Our Nation's homeland security grant programs are a vital 
part of enhancing our capacity to prepare for, protect against, 
and respond to a full range of natural disasters and manmade 
hazards. And because terrorists do not always live and plan in 
areas that they ultimately intend to strike, these grants must 
ensure that all States--both large and small--are able to build 
the capabilities to confront terrorist activity and to respond 
effectively to all hazards.
    As Senator Lieberman has indicated, we wrote the law that 
restored the administration of the grant programs to FEMA. This 
reform improved FEMA's ability to support State, local, and 
tribal preparedness with funds for planning, training, 
exercises, personnel, and equipment.
    In addition to providing such critically needed funding to 
improve the Nation's preparedness, FEMA must play another 
important role in the administration of these grants, and that 
is, to ensure wise spending of taxpayer dollars.
    Since fiscal year 2002, the Department has awarded more 
than $27 billion in homeland security grants. It seems every 
year, the Chairman and I have to join forces to restore budget 
cuts that Presidents of both parties have made in these 
important programs. But given the size of this investment, it 
is crucial that the Department can identify, measure, and 
assess what this money has bought and what future investments 
are needed. That is why Congress directed FEMA in 2006 to 
establish performance metrics to assess the Nation's overall 
level of preparedness.
    To meet this mandate, the Department has developed the 
Cost-to-Capabilities (C-2-C) initiative to measure the Nation's 
return on this investment. After 19 months of development, 
however, this program is still in its initial phases. The next 
leader of the Department's grant programs must accelerate its 
progress. After all, if we are going to keep advocating for the 
investment that we believe is absolutely essential, we need to 
be able to show our colleagues and the American people that the 
money is well spent.
    So I look forward to exploring these issues this morning 
with our nominee. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins.
    Ms. Harman has filed responses to a biographical and 
financial questionnaire, answered all the pre-hearing 
questions, and had her financial statements reviewed by the 
Office of Government Ethics. Without objection, this 
information now will be made part of the hearing record except 
for the financial data, which are on file and available for 
public inspection in the Committee offices.
    I think you know that the Committee rules require that all 
witnesses at nomination hearings give their testimony under 
oath, so I would ask you to please stand and raise your right 
hand.
    Do you swear that the testimony you are about to give to 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Ms. Harman. I do.
    Chairman Lieberman. I thank you. Please be seated. We will 
be glad to hear an opening statement, if you have one, and the 
introduction of any guests that you have with you.

       TESTIMONY OF ELIZABETH M. HARMAN TO BE ASSISTANT 
  ADMINISTRATOR,\1\ FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Harman. Thank you. Good morning, Mr. Chairman, Ranking 
Member Collins, and Members of the Committee. I would like to 
introduce to you my family who is here with me today: First and 
foremost, my husband, Dwayne, who has supported me throughout; 
my younger son, Nathan. My older son is on a field trip in New 
York. I am sure he would prefer to be there. My father, Richard 
Nalesnik. Over here I have my brother Christopher Nalesnik, and 
my other brother Matthew Nalesnik.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Harman appears in the Appendix on 
page 71.
---------------------------------------------------------------------------
    Chairman Lieberman. Who is the guy behind you?
    Ms. Harman. I wonder. Again, as far as introductions go, I 
do not think this man needs one, but this is General President 
Schaitberger from the International Association of Fire 
Fighters, and I do give sincere thanks to all of those who have 
supported me, and particularly the IAFF, which has given me an 
opportunity to work for them not once but twice in a variety of 
increased capacity and responsibility, and I thank them very 
much for their continued support and both my personal and 
professional growth. I am thankful to the IAFC as well as the 
FOP and all the others who have also provided letters of 
support.
    I understand that Senator Mikulski could not be here this 
morning due to a scheduling conflict, but I would like to thank 
her for her written statement of support and for her years of 
support for emergency responders throughout Maryland and across 
the country.
    I am privileged to appear before you today as President 
Obama's nominee for Assistant Administrator of the Grant 
Programs Directorate for the Federal Emergency Management 
Agency. I would like to thank my family again who is here, 
particularly my husband, who has always been very supportive of 
me in the various decisions I have made in my life, and my 
sons, who keep me very focused and driven.
    Throughout my life, I have been surrounded by very hard-
working people, public servants who have always strived to do 
what is right in their country. My father served in the Navy 
and retired after 30 years with the Environmental Protection 
Agency. My brother Richard served in the Army, my brother 
Christopher in the Navy and has been in local law enforcement 
with Prince Georges County, Maryland, for over 20 years now; 
and my brother Matthew has served in the U.S. Secret Service.
    The position of the Assistant Administrator of the Grant 
Programs Directorate is a position of great responsibility as 
one of its primary missions is to ensure that through Federal 
funding our Nation is better prepared to respond to and 
mitigate all-hazard events. The Post-Katrina Emergency 
Management Reform Act centralized all Department of Homeland 
Security grants at FEMA, providing a more integrated and 
coordinated system of grant management. The challenge of the 
Assistant Administrator position is to ensure that FEMA's grant 
programs are administered responsibly and economically, 
maximizing each dollar spent to improve our Nation's 
capabilities and provide a strong return on investment.
    As a former volunteer and professional firefighter, and as 
a former paramedic, I have seen firsthand where these dollars 
are being spent, have an idea where they should be spent, and 
how important Federal funding is to building capability as well 
as ensuring the health and safety of first responders 
everywhere.
    I understand the importance of including front-line 
responders of all disciplines in the design and planning phase 
of grant programs. Additionally, I understand the importance of 
keeping these stakeholders informed throughout the decision-
making process.
    Over the years, I have not only had the opportunity to 
serve as a first responder on the front lines, both, again, 
volunteer and career, but I have also been fortunate to serve 
in other emergency response managerial, teaching, policy, and 
leadership positions. I believe this experience has prepared me 
well, and if confirmed as the Assistant Administrator of the 
Grant Programs Directorate, I look forward to working with you 
and your Committee.
    As a young volunteer firefighter in Prince George's County, 
Maryland, as a career firefighter with the City of Fairfax Fire 
and Rescue, and as a member of IAFF Local 2702, I have 
firsthand knowledge of the planning, training, and equipment 
needed to perform the duties of a first responder. The City of 
Fairfax department is a combined career and volunteer 
organization. It provides fire suppression and emergency 
medical services to over 22,000 residents. The department 
responds to over 11,000 incidents, an average of over 30 
responses per day from only two fire stations. It is a 
privilege to have been affiliated with them.
    In my tenure on the faculty of the University of Maryland, 
Maryland Fire and Rescue Institute, I provided vital training 
to first responders across the country to better prepare them 
for all-hazard events. During my service at the Maryland 
Emergency Management Agency as a State Administrator for 
Exercise and Training with the National Capital Region, I 
worked with various local, State, Federal, and private sector 
partners to evaluate the effectiveness of response to both 
small- and large-scale disasters. I helped coordinate disaster 
declarations under the Stafford Act. I counseled counties on 
the assistance that was available to them. I helped coordinate 
Emergency Management Assistance Compact (EMAC) requests to 
provide aid to affected areas. I led Maryland's National 
Incident Management System (NIMS) rollout efforts. And during 
the catastrophic events of Hurricanes Katrina and Rita, I 
served as a State Liaison under the incident management system 
and coordinated efforts to receive evacuees from affected 
States.
    Most recently, as the Director of the International 
Association of Fire Fighters Hazardous Materials (HAZMAT) and 
Weapons of Mass Destruction (WMD) Training Department, I have 
been involved in all aspects of the Federal grant process, from 
the interpretation of guidance, preparation of submission 
packages, to financial and programmatic direction and 
oversight, including oversight of IAFF grants that support 
full-time staff, more than 100 instructors that train more than 
12,000 responders each year. I have established a progressive 
evaluation program to measure the effectiveness and impact of 
these training programs, a program which has become the 
evaluation model of several supporting Federal agencies.
    If confirmed, I will work diligently to measure the current 
level of preparedness to ensure Federal dollars have been 
accounted for and are producing positive results. And I vow to 
prioritize outreach efforts to ensure that grantees and 
potential grantees are using these dollars wisely and are 
building capabilities effectively. I also commit to cooperating 
fully with this Committee as it fulfills its important 
oversight function.
    In closing, I am honored and humbled by this opportunity to 
serve, and if confirmed, I pledge to work with Secretary 
Napolitano, Administrator Fugate and the FEMA leadership team, 
this Committee, and Congress to ensure that the FEMA Grant 
Programs Directorate efficiently and effectively executes the 
Department of Homeland Security's grant programs and properly 
supports the reforms contained in the Post-Katrina Emergency 
Reform Act and the Recommendations of the 9/11 Commission Act.
    I thank you, Mr. Chairman and Senator Collins, for the 
opportunity to appear before you today, and I look forward to 
answering any questions that you may have.
    Chairman Lieberman. Thanks very much, Ms. Harman. That was 
an excellent opening statement. I am going to start with the 
standard three questions we ask all nominees.
    First, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Ms. Harman. No.
    Chairman Lieberman. Second, do you know of anything, 
personal or otherwise, that would in any way prevent you from 
fully and honorably discharging the responsibilities of the 
office to which you have been nominated?
    Ms. Harman. No.
    Chairman Lieberman. And, third, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted committee of Congress if 
you are confirmed?
    Ms. Harman. Yes.
    Chairman Lieberman. Thank you. Let me begin right inside 
the Grant Programs Directorate. Staffing has been a consistent 
problem of the Directorate. The Inspector General of DHS and 
the Government Accountability Office (GAO) have pointed out 
that shortages in staffing have adversely affected the 
administration of grants. For example, staff shortages 
reportedly contributed to delays in distribution of transit 
security grants and also made it difficult for FEMA to conduct 
comprehensive grant monitoring.
    I wanted to ask you what your understanding is of the 
staffing levels now and where does staffing fall among your 
priorities if you enter this office, should you be confirmed.
    Ms. Harman. Yes, Mr. Chairman, thank you. Staffing is a 
consistent theme throughout all of the GAO reports and IG 
reports that I have read over the last few months in 
preparation for today and this position, if confirmed. The 
staffing shortages, as I understand them, there are 
approximately 30 shortages. That shortage is balanced with, 
obviously, the use of contractors and the not so favorable view 
of the usage of contractors throughout the Department.
    There is much to do in this Directorate. There are a lot of 
challenges ahead. And if you look at the recommendations in the 
GAO reports and the IG reports, all of those recommendations 
basically become my to-do list, if confirmed.
    My first priority, aside from establishing our measurements 
and our metrics to try to figure out what good all of the 
funding that we have provided everyone has done, as well as 
outreach efforts, is to take an aggressive approach to fill 
those positions with full-time government employees. That is 
the building block. There is, again, much to do, and we cannot 
get that done without full-time staff. So I look forward, if 
confirmed, to working with the FEMA leadership team as well as 
the Human Resources Department to see what we can do to get 
those positions filled quickly with qualified and energetic 
people who are ready to take on the task.
    Chairman Lieberman. That is good to hear, and obviously, 
you cannot do all that we need you to do, particularly with 
resources tight, unless you have a staff that can support your 
effort.
    Let me ask you another somewhat related question. I 
mentioned all the programs that GPD administers, separate 
preparedness grants. As a result, of course, several grants 
from different programs may go to the same jurisdiction. And I 
wanted to ask you whether you think there is an 
overproliferation of specific grant programs and whether we 
would be better off consolidating some of the many grant 
programs into a smaller number of larger grant programs. Or do 
you think that having a number of distinct targeted grant 
programs is actually a more effective way of addressing the 
range of homeland security challenges? Incidentally, if this is 
a problem, it is not the fault of the Department. It is our 
fault. So I am interested in from your experience what your 
judgment on that question is.
    Ms. Harman. Thank you. That is an excellent question. There 
are a lot of grant programs. There are more than 50 programs 
that this Directorate oversees, both administratively, 
programmatically, and financially. Much of those programs are 
coordinated through the subject matter experts in the various 
fields, whether it be transit or the Coast Guard as far as the 
port security goes. And the Grant Programs Directorate does 
take the lead on that.
    So, whether they are separate programs or they are combined 
programs, each one of those programs has their specific goals 
and objectives which need to be measured at the end. So, I have 
not looked at them, whether they should be separate or 
together, but I can certainly do so, if confirmed.
    Now I know comprehensively with the IAFF, I oversee 
anywhere from seven to eight different grant programs within my 
department alone. Those have to be looked at comprehensively as 
we work through each fiscal year, but also have to be looked at 
separately, measured separately, reported on separately, and it 
can be very challenging at times. So in the aspects of the 
stakeholders, I would be interested to hear what the 
stakeholders have to say and how they feel about that. Are 
there too many programs, too much reporting? Would it be better 
to put them all together? I mean, that is a very good question, 
and if confirmed, we can certainly look at that.
    Chairman Lieberman. Well, I urge you to do that, and I do 
not have a real judgment on it myself. It is just a question 
that I have thought about, and I would look forward to working 
with you on it as you pursue it.
    Incidentally, another possibility is to set up some 
mechanism by which your office is pushing and in some sense 
ensuring that multiple grants to a single jurisdiction or area 
are used, even if they are distinct, synergistically to create 
greater capabilities than if they are not coordinated.
    Ms. Harman. Absolutely.
    Chairman Lieberman. Let me go to the question of measuring 
performance that we talked about. We talked about the Post-
Katrina Act, the provisions we put in to ensure that grants are 
being spent effectively, yet in a recent hearing before the 
House Homeland Security Committee, the Deputy FEMA 
Administrator for National Preparedness acknowledged that FEMA 
did not yet have an accurate way of measuring the preparedness 
of States or determining to what extent preparedness has 
actually improved as a result of the homeland security grants. 
And so I wanted to ask you, if confirmed, whether you have any 
specific steps you plan to take to develop performance measures 
for preparedness and also to assess the impact of the broad 
homeland security grants.
    Ms. Harman. Thank you. I am familiar with the testimony 
that was given by Deputy Administrator Manning. I watched it on 
the webcast there. And I am very familiar with the C-2-C 
program. I have been briefed on that.
    Chairman Lieberman. Good.
    Ms. Harman. I understand it is in the pilot phase right 
now. It has had some stakeholder involvement, and it is 
progressing forward. And if confirmed, I look forward to 
analyzing the results of that to see how to move forward.
    The measurement of preparedness overall with all of the 
billions of dollars that have been invested into building 
capability is a huge undertaking. I can speak firsthand of just 
the programs that I run in measuring performance. We have a 
model program. That is easy to do when you have a small group 
of people, you are measuring training, you are measuring their 
performance, whether or not your training is any good, and are 
folks retaining information. It is easier to do on a small 
scale. But on a much grander scale, particularly as we look at 
capabilities across the Nation, States that require one set of 
capabilities to respond to, let us just say, earthquakes or 
tornadoes versus other States that may not necessarily need to 
prepare for that, it is a huge undertaking on how you are going 
to mesh those together and come up with a quantifiable and 
qualifiable answer to give you on how prepared are we.
    I can speak from firsthand knowledge of being a volunteer 
in Prince George's County, understanding the equipment that was 
provided to me at that time many years ago, progressing into a 
career position with the City of Fairfax, and knowing the 
advanced equipment that was provided at that time. The money 
that has been invested into our first responders and capability 
I can attest to firsthand, and it provides for safety, it 
provides interoperability and communications. But to take that 
information and quantify it and say what good has it done 
collectively, I think we have a lot of work to do on that. So, 
if confirmed, I look forward to working with you on that, and 
this Committee, and progressing through and looking at the C-2-
C program that we have already invested in and seeing where 
that takes us.
    Chairman Lieberman. Good. Thank you. Senator Collins.
    Senator Collins. Let me pick up where the Chairman just 
left off in talking to you about the C-2-C program. It is my 
understanding that just last week the Department sent out an e-
mail telling the pilot participants that the Department has 
decided to close the pilot. It looks like they are halting it 
because of negative feedback from the State and local users.
    I applaud FEMA for being responsive to the needs and 
concerns of stakeholders, but I am concerned that this pilot, 
which has been in existence for 19 months, has still not been 
brought to fruition. And if we are reading the e-mail 
correctly, it looks like it may never be brought to fruition. 
That obviously is not acceptable.
    It seems to me that FEMA would have been much better off if 
at the beginning of designing a program to assess the value and 
effectiveness of grant investments, it brought together the 
first responder communities, State emergency managers, local 
emergency managers, and sat down and discussed what is the best 
way to assess the effectiveness of the Federal investment. That 
is sort of a negotiated rulemaking approach, which I think 
always improves the process.
    How do you plan to proceed with this initiative now?
    Ms. Harman. That is a very wise suggestion you make to 
bring stakeholders together, and obviously, that is what we 
want to do. We want to be careful with any measurement tool. As 
the Federal Government, we are responsible to say what good our 
funding and our support has gotten us. What is our return on 
investment? What good have we done over all of these years?
    Stakeholder involvement is very important, and not everyone 
who sits around the table--they need to be invited to the 
table. They do not always get what they want. There is a little 
bit of push and shove sometimes. But we want to make sure folks 
have the money, have the funding to build the capabilities, but 
they need to understand, they need to report to us in some 
fashion, in some metric that we determine what that is 
collectively, hopefully, so that we do not burden them with any 
reporting requirements.
    As the Chairman indicated earlier, there are numerous grant 
programs out there, all of them on various different cycles, 
different grant periods, different reporting requirements. It 
can be very challenging.
    I am not familiar with the e-mail that you referenced. 
However, the advantage that I see to the C-2-C program--
although it has taken a long time and I am not familiar with 
the inception of that, so I will certainly look into that, if 
confirmed--is that it is building on existing investments that 
the Federal Government has already made. It is looking and 
using metrics such as the target capabilities list, the 
universal task list, the national scenarios as a foundation for 
measurement, which I think is an asset to the program, but how 
that works, we need to really look at that.
    Pilot phases, it is good that there is stakeholder 
involvement, and I am curious to see what would halt--I do not 
know if it was halted or we are just moving into another phase 
of that. But knowing the investment that has already been made 
into the C-2-C program, I certainly, if confirmed, will take a 
look at that and find out where we are. We do not want to throw 
the baby out with the bath water, but if there are improvements 
that can be made and stakeholder involvement that has already 
come in, and if it has not come in, we need to make sure it 
does come in, so that we have a solid program and can make a 
determination whether we need to move forward or move into 
another direction.
    Senator Collins. Thank you. I want to bring up an issue 
that was covered in some of the pre-hearing questions. As you 
know, most of the DHS grant programs contain a requirement that 
the grantee match part of the grant, and the reason for that 
and the reason that I have supported having some kind of match 
is you want the State or local entity to be invested, to have 
some skin in the game, to make sure that it is not just a 
Federal handout but, rather, a true partnership to improve 
capabilities. But in your response to a pre-hearing question, 
you expressed concern about the use of matches.
    Now, I recognize that we are in very difficult economic 
times right now, and there may be a valid reason to suspend or 
lower the match to get us through this budget time that is 
causing so many State and local governments to have to cut 
back. But, in general, your concern seems to be over the 
administrative burden of the match requirement.
    I need to clarify this issue with you. What is your view on 
requiring a match from the grantee?
    Ms. Harman. I respect your approach and your desire to have 
matches in the programs, and certainly I understand that there 
is various legislation, the 9/11 Act and others, that requires 
matches in the grant programs. And certainly if that is 
legislated, that is how the grants will be executed.
    The question in the questionnaire referenced my answer to 
whether or not I thought a match should be waived. My question 
back was: What good do matches do for us? What do we get? Aside 
from a concept of buy-in, I have not seen any data that 
suggests that matches get us a better bang for the buck at the 
end. I think in theory they do. You would think if you are a 
teenager and you are going to buy a $25,000 car and your father 
says, ``I will give you a $25,000 car if you put $5,000 into 
it,'' that is great. I am thrilled. But when it comes to grant 
dollars, what does that mean for our grantees and the end user? 
Are they deterred by that? Do they not apply because there is a 
match? Do they finally get to the point where they are eligible 
to apply for a grant that requires a match, receive it, and 
then go through some sort of hardship, whether it is the 
economy or personal business hardship, that requires them to 
turn that money back in to us? What does that mean for the 
program?
    So I throw those questions out there and, if confirmed and 
I am asked if a grant should require a match, if we should 
negate an existing match, or if a grant should be waived, my 
personal experience with administering grants with matches, it 
was a disaster. It was very difficult. You have cash matches. 
You have in-kind matches. The burden on doing the math behind 
an in-kind match and sometimes internally having interpretation 
differences between the programmatic side and the accounting 
side takes away the focus from the program when you are just 
worried about numbers sometimes on a page.
    So I think, if confirmed in this position and I am asked 
should a match be required, should it be waived, should it be 
negated, I would like to see the data to see what does that do 
for us? Do we have more applicants when a match is not 
required? Do we have less applicants? And if we are looking to 
really provide a diverse support for folks, particularly in 
small rural areas that may not have the infrastructure, the 
administrative support, or the cash to calculate and pony up 
that 25 percent, or whatever it may be, we might be deterring 
them from building the capability.
    So I just want to make sure that, if confirmed and I am in 
this position, I have the data to properly inform either the 
Secretary who has the option of making a waiver or this 
Committee to decide what you want to do with the legislation as 
opposed to just using my personal experience where I did not 
care for a match.
    Senator Collins. Well, I am concerned about your response. 
It is certainly understandable from the perspective of a local 
or State official or first responder that you would want no 
match at all. I mean, who would not want just Federal money? 
But I think if we are talking about ensuring high-quality, 
needed equipment, personnel, training, that having some sort of 
match, not a burdensome one that prohibits the application from 
going forward, not one that is so burdened with paperwork that 
it becomes impossible, as you have suggested, but rather a 
match that shows that there is a serious commitment at the 
State or local level to me is absolutely essential because 
otherwise I think we are going to see low-priority projects 
brought forward because if you are not paying anything and 
there is no accountability at the State or local level for the 
investment there, I believe you will see lower-quality 
projects.
    So your response concerns me. I do not doubt at all that 
you are going to follow the law. That is not my issue. But I 
think you need to think more about what the requirement for a 
match brings to the integrity of the program.\1\
---------------------------------------------------------------------------
    \1\ Letter from Ms. Harman submitted by Senator Collins appears in 
the Appendix on page 112.
---------------------------------------------------------------------------
    Let me just very quickly ask you one final question, and I 
will submit the rest for the record, if I may.
    The Chairman and I did an extensive investigation into the 
attacks on our country on September 11, 2001, in the wake of 
the report by the 9/11 Commission. And what that report 
demonstrated is that terrorists do not always operate solely in 
the areas that they intend ultimately to strike. They plan, 
they recruit, they train, and they live in places like Norman, 
Oklahoma; Portland, Maine; Decatur, Georgia; Verona Beach, 
Florida. That is where the September 11, 2001, hijackers 
trained or lived or passed through.
    Therefore, I believe it is imperative that we build a 
baseline of capabilities all across this country. I will never 
forget that on that day, two of the hijackers started their 
path to death and destruction from Portland, Maine, even though 
their targets were elsewhere. And Secretary Napolitano has said 
before us that every area of America faces some level of risk.
    Are you committed to ensuring that smaller States, that 
every State has the resources and receives adequate Federal 
equipment and assistance to meet baseline capabilities, not 
only when it comes to terrorist attacks, but also natural 
catastrophes which affect every State?
    Ms. Harman. Absolutely. Clearly, the legislation that sets 
forth in the 9/11 Act prioritizes the grants on risk and 
vulnerability, and we do have small town rural America that we 
also have to be concerned about, and some of those individuals 
and organizations may not necessarily have the high risk that 
would allow them to receive direct funding. In those instances, 
it is very important for them--and, if confirmed, I mentioned 
earlier one of my priorities is outreach. Those locals need to 
coordinate closely with their State administrative agencies, 
and we need to ensure at FEMA that those States have 
comprehensive plans to build capabilities, not just in the 
high-risk places, but to understand that those individuals who 
may have to evacuate the high-risk areas should something 
happen and are moving out into the more rural areas, they need 
to be prepared out there as well.
    So outreach is key to me. Coordination of existing grant 
programs to maximize their effectiveness, I think, needs to 
occur in every single State, and they need to focus on their 
individual threats and the potential threats that they could 
have.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins.
    Ms. Harman, thank you. I think you have been very 
impressive. We have asked you some tough questions. You have a 
lot of experience. You have thought about the answers, and I am 
sure at Senator Collins' invitation you will think twice about 
some of the answers.
    Ms. Harman. I will, sir. Thank you.
    Chairman Lieberman. But I have been impressed. I must say I 
am also impressed by your family. It is quite remarkable that 
you are from a family that has been so involved in public 
service, now in the second generation. That says a lot about 
the stock from which you have emerged.
    Without objection, the record of the hearing will be kept 
open until 12 noon tomorrow for the submission of any written 
questions or statements for the record.
    Again, I hope that the Committee can approve your 
nomination rapidly and see if we can get you confirmed by the 
Senate before Christmas. But for now, I thank you for a long 
career of public service and for your willingness to, if 
confirmed, take on this responsibility.
    Ms. Harman. Thank you, Mr. Chairman and Senator Collins. 
Thank you very much.
    Chairman Lieberman. The hearing is adjourned.
    [Whereupon, at 11:20 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
